September 28, 2009

JORDAN M. SMALL
VICE PRESIDENT, NETWORK OPERATIONS

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT


SUBJECT:          Audit Report – Vehicle Management – National Trailer Lease Renewal –
                  Capping Report (Report Number NL-AR-09-009)

This capping report focused on the National Trailer Lease renewal process.1 The
objective of our self-initiated audit was to identify opportunities to enhance the National
Trailer Lease process nationwide (Project Number 09XG020NL001). This report focuses
on improving processes from a headquarters perspective. See Appendix A for additional
information about this audit.

Conclusion

We concluded in prior audits of eight U.S. Postal Service areas that the National Trailer
Lease renewal process was not as effective and economical as it could have been. This
occurred because the Postal Service areas did not have adequate management
processes in place to routinely identify trailer requirements, ensure proper trailer use, and
adjust trailer inventory based on continued need. We concluded in these audits that
improved management processes could save the Postal Service more than $32 million by
returning 1,102 unneeded trailers to the leasing contractor, and we identified about $5.9
million in questioned costs. We also found additional guidance and oversight by Postal
Service Headquarters is needed to further improve the National Trailer Lease renewal
process nationwide.

Specifically, the Postal Service areas were not:

         Following a uniform, comprehensive process to routinely identify trailer needs and
         return unneeded trailers to the leasing contractor, because Postal Service
         Headquarters had not required them to do so.




1
 On July 1, 2006, the Postal Service executed a renegotiated 6-year lease renewal of the September 2000 National
Trailer Lease with Transport International Pool (TIP), Inc., a wholly owned trailer and equipment-leasing subsidiary of
General Electric Company.
Vehicle Management – National Trailer Lease Renewal –                                NL-AR-09-009
 Capping Report



           Using the leased trailers for their intended purpose but were using them to store
           equipment2 and did not seek more cost effective storage alternatives. Postal
           Service Headquarters did not reinforce compliance with their policy requiring
           management to analyze and validate trailer storage requirements.

           Fully utilizing the capabilities of the satellite-tracking system and tracking devices
           for the leased trailers, because area and plant managers had not been trained
           properly in the system’s use.

           Replacing trailers that were older than specified in the National Trailer Lease
           contract, because headquarters management was not always ensuring the supplied
           fleet continued to meet contract specifications and requirements after acceptance.

As a result, the Postal Service may continue to incur costs for trailers that are not needed
or may not be utilizing the most economical storage alternatives. In addition, the Postal
Service may not have benefited from available technology to monitor trailer inventory and
track trailer use, and ensure use of the most efficient and safe transportation in
accordance with the National Trailer Lease agreement. See Appendix B for our detailed
analysis of the National Trailer Lease Fleet Management.

We recommend the Vice President, Network Operations:

1. Develop a policy to require areas to establish a comprehensive process to routinely
   identify trailer requirements and manage trailer inventory and use, including a process
   to routinely determine whether trailers are improperly used for storage.

We also recommend the Vice President, Network Operations, coordinate with the Vice
President, Supply Management to:

2. Provide training on the features and functionality of the satellite-tracking system for the
   National Trailer Lease trailers, including training on the ability to adjust the daily timing
   for location confirmations and on the features and functionality of the related web-
   based management system.

3. Ensure that the supplied trailers are of the appropriate age as specified in the National
   Trailer Lease.

Management’s Comments

Management agreed with our findings and recommendations. Management stated they
will issue a policy to strengthen procedures for leased trailer acquisition, fleet
management, and the trailer lease renewal. In addition, they have agreed to update and
reissue the policy on the use of trailers for storage, including guidelines for routine
inspection and compliance monitoring.


2
    This occurred in seven of the eight postal areas we reviewed.

                                                              2
Vehicle Management – National Trailer Lease Renewal –                          NL-AR-09-009
 Capping Report


Furthermore, Network Operations and Supply Management have already begun
developing an approach to train area and local employees on the features and
functionality of the satellite tracking and web-based management systems. They intend to
provide refresher training to those who have had training on the systems, and plan to
designate area “trainers” that will provide on-going training. They expect to complete the
training program in 2010.

In addition, by the end of November 2009, Supply Management will issue a notice to the
leasing contractor that reiterates the trailer age requirements within the National Trailer
Lease agreement and will request a plan to bring the leased fleet into full contract
compliance.

We have included management’s comments, in their entirety, in Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the findings and
recommendations and corrective actions should resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. We appreciate the prompt action already taken and will continue
working with management to obtain support for those actions in the process of closing the
recommendation. This recommendation should not be closed in the Postal Service’s
follow-up tracking system until the OIG provides written confirmation that they can be
closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Cynthia F. Mallonee
    Russell A. Sykes
    Bill Harris


                                                    3
Vehicle Management – National Trailer Lease Renewal –                                    NL-AR-09-009
 Capping Report


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

During fiscal year 2000, the Postal Service began a major, multi-phased corporate
initiative to terminate local trailer contracts, centralize trailer acquisition at Postal Service
Headquarters, and commit to a single national contractor.

Initial National Trailer Lease – In September 2000, the Postal Service signed a National
Trailer Lease contract for 4,475 trailers with TIP, Inc., a wholly owned trailer and
equipment-leasing subsidiary of General Electric Company.




                         These national lease trailers were loaded with pallets at the
                            Dallas Network Distribution Center, January 9, 2007.


The anticipated cost of the 12-year contract plus the renewal option was more than $201
million. The new centralized national contract would:

       Reduce the average cost to lease a trailer from $11.55 to $10.21 per day.

       Potentially save the Postal Service more than $2.2 million annually.

       Provide the flexibility to maintain trailer inventory only when and where trailers are
       needed, because unneeded trailers could be returned to the leasing contractor.

National Trailer Lease Renewal – On July 1, 2006, the Postal Service executed a
renegotiated 6-year lease renewal. The new agreement reduced the lease cost to $10.07
per trailer per day and was intended to:

       Improve inventory controls by requiring the leasing contractor to install satellite-
       tracking devices on all trailers by November 1, 2006.

       Save money by allowing the Postal Service to return unneeded trailers.

Under the 2006 National Trailer Leases, Postal Service officials allocated 4,692 trailers to
eight postal areas.
                                                      4
Vehicle Management – National Trailer Lease Renewal –                                                 NL-AR-09-009
 Capping Report



                                    Table 1. 2006 Trailer Count by Area

                                                                    2006 Trailer
                                               Area                   Count at
                                                                     Inception
                                     Capital Metro                            190
                                     Eastern                                  582
                                     Great Lakes                            1,003
                                     Northeast                                667
                                     Pacific                                  668
                                     Southeast                                131
                                     Southwest                                272
                                     Western                                1,179
                                      Total                                 4,692

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit is to identify opportunities to enhance the National Trailer Lease
process nationwide based on issues identified in prior audits of eight Postal Service areas.
Although the objectives of our specific Postal Service area audits changed slightly
throughout the series, the overall audit objectives were to determine whether the trailer
lease and subsequent renewal were effective and economical. Although the audit was
nationwide in scope, we used a regional approach, because individual Postal Service
areas control the National Trailer Lease fleet.

During our work, we interviewed Postal Service officials at headquarters and in each area
and visited 19 network distribution centers3 and other facilities nationwide. We observed
and photographed operations, inspected trailers, interviewed supervisors and employees,
and examined Postal Service policies and procedures. We used computer-assisted
analysis techniques to examine computer data in management’s Transportation
Information Management Evaluation System.

In addition, we collected and examined yard management reports and information on
trailers that were out of service for repairs. We did not audit or comprehensively validate
the data; however, several control weaknesses constrained our work. For example, some
computer records had missing or inaccurate data. Although data and other limitations
constrained our work, we compensated by applying alternate audit procedures such as
examination of source documents, observation, physical inspection, and discussions with
appropriate officials.

We examined the National Trailer Lease and other relevant Postal Service documents and
records. We discussed our conclusions and observations with management throughout
our audit and included their comments where appropriate.



3
    In 2009, the Postal Service changed the names of Bulk Mail Centers to Network Distribution Centers (NDC).


                                                            5
Vehicle Management – National Trailer Lease Renewal –                                   NL-AR-09-009
 Capping Report


We conducted this performance audit during August and September 2009. We conducted
work associated with eight Postal Service areas from July 2003 through August 2009, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform audit work to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provided a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and
conclusions with management on September 2, 2009, and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

The U.S. Postal Service Office of Inspector General (OIG) has worked with the Postal
Service to improve vehicle management and reduce vehicle costs. As indicated by the
following chart, since September of 2004, we have issued 10 audit reports that identified
potential trailer lease savings exceeding $37 million. Eight of these reports are part of the
National Trailer Lease series, and two reports relate other issues concerning trailer fleet
management. The Postal Service agreed with all of the recommendations.

                                                                                          Monetary
                                                      Report          Final Report
                      Report Title                                                         Impact
                                                      Number              Date
                                                                                        (in millions)
    Vehicle Management – National Requirements –
                                                    NL-AR-04-006   September 30, 2004       $9.3
    Northeast Area
    Vehicle Management – National Trailer Lease –
                                                    NL-MA-05-001     April 21, 2005     Not applicable
    Unresolved Audit Recommendations
    Vehicle Management – National Trailer Lease –
                                                    NL-ID-06-002    February 7, 2006    Not applicable
    A.T. Kearney, Inc. Analysis
    Vehicle Management – National Trailer Lease
                                                    NL-AR-06-013   September 29, 2006       $1.9
    Requirements – Capital Metro Area
    Vehicle Management – National Trailer Lease
                                                    NL-AR-07-005     June 15, 2007          $4.8
    Renewal – Southwest Area
    Vehicle Management – National Trailer Lease
                                                    NL-AR-07-009   September 28, 2007       $7.5
    Renewal – Pacific Area
    Vehicle Management – National Trailer Lease
                                                    NL-AR-08-005    August 27, 2008         $4.1
    Renewal – Eastern Area
    Vehicle Management – National Trailer Lease
                                                    NL-AR-08-007   September 25, 2008       $2.2
    Renewal – Southeast Area
    Vehicle Management – National Trailer Lease
                                                    NL-AR-09-004     March 26, 2009         $5.7
    Renewal – Great Lakes Area
    Vehicle Management – National Trailer Lease
                                                    NL-AR-09-008    August 14, 2009         $2.3
    Renewal – Western Area
                          Total                                                            $37.94




4
    Minor variance due to rounding.

                                                       6
Vehicle Management – National Trailer Lease Renewal –                                                 NL-AR-09-009
 Capping Report


                                  APPENDIX B: DETAILED ANALYSIS

National Trailer Lease Fleet Management

We determined in prior audits of eight Postal Service areas, that the National Trailer Lease
renewal process was not as effective and economical as it could have been because the
Postal Service areas did not have adequate management processes in place to routinely
identify trailer requirements, ensure proper trailer use, and adjust trailer inventory based
on continued need. Of nearly 5,500 trailers leased nationwide, more than 1,100 were
identified as trailers that could be returned to the leasing contractor.

In analyzing the use of trailers, we identified the maximum number of trailers used during
the analysis period, which was at least a 6-month period. Our analysis revealed
underutilization of trailers in all of the eight areas. Specifically, we found the Postal
Service used only 4,395 of the leased trailers (80 percent) and did not need 1,102 trailers.
Postal Service management also has taken some action to return trailers and achieve
additional savings after our individual audits were completed, and have reported 4,259
leased trailers.

              Table 2. Underutilization of Trailers in Eight Postal Service Areas

                                         Trailers
                                                     Trailers OIG               Trailers OIG
                                        Leased at                                                    Leased
                  Area                              Recommended                 Reported as
                                         Start of                                                    Trailers
                                                      to Return                   Needed
                                          Audit
      Northeast                                 705             250                        455              665
      Capital Metro5                            150              54                         96              270
      Southwest                                 302             134                        168              205
      Pacific                                   543             210                        333              487
      Eastern                                   508             135                        373              340
      Southeast                                 284              69                        215              268
      Great Lakes                             1,687             179                      1,508              842
      Western                                 1,318              71                      1,247            1,182
      Total                                     5,497                 1,102              4,395            4,259

These conditions occurred because Postal Service areas were not following a uniform,
comprehensive process to routinely identify trailer needs and return unneeded trailers to
the leasing contractor because Postal Service Headquarters had not required them to do
so. In 2003, the OIG made its first recommendation relating to the need for the Postal
Service to identify trailer requirements and manage their use. This same recommendation
was made in each of the eight issued audit reports. However, the Postal Service has not
yet developed a comprehensive policy or standardized process requiring postal areas to
routinely identify trailer needs and trailers that can be returned to the leasing contractor.


5
 The current leased trailers increased in the Capital Metro Area because the Postal Service realigned areas in 2005,
giving Capital Metro more geographical area.

                                                           7
Vehicle Management – National Trailer Lease Renewal –                         NL-AR-09-009
 Capping Report




Since the beginning of our audit series, the OIG has recommended that the Postal Service
return 1,079 trailers, estimating savings of more than $37 million. The Postal Service
identified and returned 23 trailers estimated to save about $700,000. In addition, during
our audit review, we noted that only the Western Area had taken some proactive
measures in managing overall inventory by reducing the number of leased trailers from
1,353 to 1,200.

The Postal Service’s general investment policy states that requirements must be
documented in detail so that approving officials can make informed procurement
decisions. Further, in justifying the need for the 2000 National Trailer Lease and the
subsequent 2006 renewal, management stated the centralized national contract would
provide the flexibility to maintain trailer inventory only when and where trailers were
needed, because unneeded trailers could be returned to the leasing contractor. The
Postal Service did not fully benefit from part of the lease because of inadequate Postal
Service Headquarters’ guidance and oversight in the regular assessment of trailer need.

Trailer Storage. In seven of the eight areas we audited, the OIG found trailers being
improperly used for storage. The OIG first identified the use of leased trailers for storage
in 2001. Since then, nine additional reports issued through 2009 addressed the same
condition. The OIG observed excessive storage of mail transportation equipment and
dismantled Postal Service processing equipment in leased trailers. Local managers stated
they used trailers to store excess equipment because of inadequate storage space.

A Postal Service Headquarters policy letter dated August 11, 2004, requires that
management analyze and validate trailer storage requirements. The letter also stipulates
                                                    8
Vehicle Management – National Trailer Lease Renewal –                           NL-AR-09-009
 Capping Report


it is Postal Service policy to meet storage requirements with non-roadworthy trailers at
lower rates. However, since 2004, Postal Service Headquarters has not provided
additional guidance or oversight to ensure that this policy has been followed. In addition,
the Postal Service does not have a comprehensive process to ensure the proper use of
trailers, including identifying trailer storage requirements. The practice of storing
equipment in roadworthy trailers leased for transportation is unnecessary and costly.

Satellite Tracking Devices. The 2006 National Trailer Lease renewal was intended to
improve inventory controls by requiring the leasing contractor to install wireless satellite-
tracking devices on all trailers by November 1, 2006. Through a web-based management
information system, Postal Service management has the capability to identify idle and lost
trailers by locating installed wireless tracking devices once each day via satellite. We
found system limitation issues as follows.

       The data produced from these devices can be limiting if the trailers’ locations are
       reported at the same time each day. For example, a trailer may be erroneously
       reported as idle if it is in the same location as it previously was at that particular
       time of day; however, the trailer may have been used at other times during the day.

       Some facilities were unaware of the capability to change the time of daily
       positioning checks and stated that the data was not useful to identify utilization
       because of this limitation.

Area and plant managers are not fully utilizing the capabilities of the satellite-tracking
system and tracking devices, because they have not been trained fully in their use. In
addition, the OIG reported that one area did not have the devices installed on 47 of its
trailers as late as 21 months after the scheduled due date.

Trailer Age. We determined that some trailers in the National Trailer Lease fleet were
older than specified in the lease. At the beginning of the term of the 2006 National Trailer
Lease, the leasing contractor was to supply trailers that were no more than 10 years old.
Because trailers were considered 1 year old at the end of the year in which they were
manufactured, they should not have aged beyond 13 years by the beginning of 2009. As
of June 18, 2009, 458 of the 4,259 trailers (10.8 percent) leased nationwide were more
than 13 years old. This occurred because headquarters management was not always
ensuring the supplied fleet continued to meet contract specifications and requirements
after acceptance, and the leasing contractor failed to adhere to this part of the contract.
The older trailers could potentially affect safety and require more maintenance than newer
trailers.




                                                    9
Vehicle Management – National Trailer Lease Renewal –       NL-AR-09-009
 Capping Report


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                    10
Vehicle Management – National Trailer Lease Renewal –    NL-AR-09-009
 Capping Report




                                                    11
Vehicle Management – National Trailer Lease Renewal –    NL-AR-09-009
 Capping Report




                                                    12
